No. 19-1026
IN THE SUPREME COURT OF THE UNITED STATES
_________________
FORD MOTOR COMPANY, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with
copies of the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and
first-class mail, postage prepaid, this 26th day of May, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,047 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 26, 2020.

May 26, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of
Justice, in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to Charlene
Goodwin, Supervisory Case Management Specialist, Office of the Solicitor General, at
(202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

19-1026
FORD MOTOR COMPANY
USA
JESSICA L. ELLSWORTH
HOGAN LOVELLS US LLP
COLUMBIA SQUARE
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5600
JESSICA.ELLSWORTH@HOGANLOVELLS.COM
FRANCES HADFIELD
CUSTOMS & INTERNATIONL TRADE BAR
ASSOCIATION
204 E. ST. NE
WASHINGTON, DC 20002
202-675-8447
FHADFIELD@CROWELL.COM
PETER D. KEISLER
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
PKEISLER@SIDLEY.COM
MATTHEW NICLEY
CUSTOMS AND INTERNATIONAL TRADE
ASSOCIATION HUGHES HUBBARD AND REED
1175 I STREET, N.W
WASHINGTON, DC 20005
JOHN M. PETERSON
NEVILLE PETERSON LLP
ONE EXCHANGE PLAZA
55 BROADWAY
SUITE 2602
NEW YORK, NY 20006
212-635-2730
JPETERSON@NPWNY.COM

VIA EMAIL

